                 BUREAU OF ALCOHOL, TOBACCO,
                   FIREARMS AND EXPLOSIVES
                 ANNUAL FINANCIAL STATEMENT
                       FISCAL YEAR 2009

                  OFFICE OF THE INSPECTOR GENERAL
                     COMMENTARY AND SUMMARY

       This audit report contains the Annual Financial Statement of the
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) for the fiscal
years (FY) ended September 30, 2009, and September 30, 2008. Under the
direction of the Office of the Inspector General (OIG), KPMG LLP performed
the audit in accordance with U.S. generally accepted government auditing
standards. The audit resulted in an unqualified opinion on the FY 2009
financial statements. An unqualified opinion means that the financial
statements present fairly, in all material respects, the financial position and
the results of the entity’s operations in conformity with U.S. generally
accepted accounting principles. For FY 2008, ATF also received an
unqualified opinion on its financial statements (OIG Report No. 09-15).

       KPMG LLP also issued reports on internal control and on compliance
and other matters. For FY 2009, the Independent Auditors’ Report on
Internal Control over Financial Reporting did not identify any significant
deficiencies. No instances of non-compliance with applicable laws and
regulations or other matters were identified during the audit.

       The OIG reviewed KPMG LLP’s reports and related documentation and
made necessary inquiries of its representatives. Our review, as
differentiated from an audit in accordance with U.S. generally accepted
government auditing standards, was not intended to enable us to express,
and we do not express, an opinion on ATF’s financial statements, conclusions
about the effectiveness of internal control, conclusions on whether ATF’s
financial management systems substantially complied with the Federal
Financial Management Integrity Act of 1996, or conclusions on compliance
with laws and regulations. KPMG LLP is responsible for the attached
auditor’s reports dated November 2, 2009, and the conclusions expressed in
the reports. However, our review disclosed no instances where KPMG LLP
did not comply, in all material respects, with U.S. generally accepted
government auditing standards.
